Tr

C@OQCKLE

. E-Mail Address:
Le ga 1 Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-351 and No. 18-1447

FEDERAL REPUBLIC OF GERMANY, et al.,
Petitioners,
v.
ALAN PHILIPP, et al.,
Respondents.

meneenennenceeennnnnnanennnnennan © meen nanan nnn

REPUBLIC OF HUNGARY, et al.,
Petitioners,
v.
ROSALIE SIMON, et al.,
Respondents.
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE WORLD
JEWISH CONGRESS, COMMISSION FOR ART RECOVERY, AND AMBASSADOR
RONALD S. LAUDER AS AMICI CURIAE IN SUPPORT OF RESPONDENTS AND
AFFIRMANCE in the above entitled case complies’with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 7988 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 29th day of October, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska &v Chk
RENEE J, GOSS 9 . .
Notary Public

My Comm. Exp. September 5, 2023
Affiant

 

40154
